No.
In the
Supreme Court of the United States
________
BRENDA YADIRA GAMEZ-CASTANEDA,
Petitioner,
v.
UNITED STATES OF AMERICA,
________

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
________
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
________

Mark G. Parenti

Counsel of Record

Parenti Law PLLC
P.O. Box 19152
10497 Town & Country Way
Suite 700
Houston, Texas 77224
mark@parentilaw.com
Tel: (281) 224-8589

Petitioner Brenda Yadira Gamez-Castaneda respectfully moves under
Rule 39.1, Supreme Court Rules, and Title 18, United States Code section
3006A(d)(7), for leave to proceed in forma pauperis, and to file the attached
Petition for a Writ of Certiorari to the United States Court of Appeals for the
Fifth Circuit without prepayment of fees. The Petitioner was represented by
appointed counsel under the Criminal Justice Act of 1964, as amended, in the
court of appeals. Leave to proceed in forma pauperis on appeal was sought
and granted in the district court. No affidavit is attached, inasmuch as the
court below appointed counsel for petitioner under the Criminal Justice Act
of 1964.
Respectfully submitted.

s/ Mark G. Parenti
Mark G. Parenti
Parenti Law PLLC
P.O. Box 19152
10497 Town & Country Way
Suite 700
Houston, Texas 77024
mark@parentilaw.com
Tel: (281) 224-8589

Counsel of Record
DATED: January 20, 2021

